No.
IN THE

Jiuprcme dlaurt of tfye JKmtefr States
Brian D. Swanson
Petitioner,
v.
United States of America,
Respondent.
On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Eleventh Circuit
PETITION FOR A WRIT OF CERTIORARI

Brian D. Swanson
Proceeding Pro Se
1805 Prince George Ave
Evans, Ga 30809
(831)601-0116
swansons6@hotmail.com

1

QUESTIONS PRESENTED
1. May the Respondent collect a direct tax on
Petitioner’s capital without going through the
rule of apportionment?
2. May Respondent use Petitioner’s federal tax
return to evade the apportionment requirement
for collecting a direct tax on his capital and use
Petitioner to confiscate the State of Georgia’s
constitutionally protected source of revenue?
3. Are Petitioner’s employment earnings capital or
income?
4. Does distinguishing between capital and income,
when calculating a personal income tax liability,
establish a sufficient factual matter to claim an
income tax refund and to survive a Rule 12(b)(6)
motion to dismiss?
5. Did the Eleventh Circuit abuse its discretion by
imposing an $8,000 sanction on Petitioner when
it ignored both the constitutional questions
presented to it and Respondent’s contradictory
handling of his tax returns?

11

LIST OF PARTIES
All the parties appear in the caption of the
case on the cover page.

iii

TABLE OF CONTENTS
l
QUESTIONS PRESENTED
11
LIST OF PARTIES.............
/
in
TABLE OF CONTENTS....
IV
TABLE OF AUTHORITIES.
1
PETITION FOR A WRIT OF CERTIORARI
1
OPINIOINS BELOW.....................................
1
STATEMENT OF JURISDICTION.............
2
CONSTITUTIONAL PROVISIONS............
2
INTRODUCTION..........................................
3
STATEMENT OF THE CASE......................
5
REASONS FOR GRANTING THE WRIT ...
Respondent is violating the Constitution by
I.
collecting a direct tax on Petitioner’s capital
without going through the rule of
5
apportionment.
Respondent is attempting to use Petitioner’s
II.
federal tax return to evade the apportionment
requirement for collecting a direct tax on his
capital and use Petitioner to confiscate the
State of Georgia’s constitutionally protected
19
source of revenue
III. The Eleventh Circuit imposed an $8,000
sanction on Petitioner but ignored both the
constitutional questions presented to it and
31
Respondent’s contradictions
35
CONCLUSION...............................

APPENDICES
OPINION OF THE ELEVENTH CIRCUIT
ORDER OF THE DISTRICT COURT........

App. 1
App. 10

IV

TABLE OF AUTHORITIES
Cases

Butchers’ Union v. Crescent Co.
Ill U.S. 746 (1884)

8

Doyle v. Mitchell Bros. Co.
247 U.S. 179 (1918)

6, 8,9

Eisner v. Macomber
252 U.S. 189 (1920)

10, 12, 23

Hvlton v. United States
3 U.S. 3 Dali. 171 171 (1796)

26

Knowlton v. Moore
178 U.S. 41 (1900)

15

Murphy v. IRS
493 F.3d 170 (DC Circuit, 2007)

24

National Federation ofIndependent Business (NFIB)
v. Sebelius
23, 27
567 U.S. 519 (2012)
Pollock v. Farmers’ Loan & Trust Co.
158 U.S. 601 & 618 (1895)
Stratton’s Independence v. Howbert
231 U.S. 399 (1913)................

20, 21
9

V

Statutes

26 U.S.C. § 61(a)..

11,16

26 U.S.C. §3401(a)

18

26 U.S.C. §312l(a)

18

Other Authorities
1913 Congressional Record,Vol L,Part 4 .. 5,6,7,13,14
Abraham Lincoln, First Annual Message
Federalist #39

9
25

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner, Brian D. Swanson (“Swanson,” “I,”
“me”) having first-hand knowledge of the events in
this case respectfully petitions for writ of certiorari
to review the judgement of the United States Court
of Appeals for the Eleventh Circuit (“Eleventh
Circuit”) and the United States District Court for the
Southern District of Georgia.
The legal citations and arguments used are
those of a layperson without any formal or informal
legal training. Therein, Brian D. Swanson
respectfully asks this Court’s indulgence.
OPINIONS BELOW
The unpublished decision of the United States
Court of Appeals for the Eleventh Circuit is attached
as Appendix 1-9. The unpublished decision and order
of the United States District Court for the Southern
District of Georgia granting motion to dismiss in
favor of Respondent is Appendix 10-14.
STATEMENT OF JURISDICTION
This Court has jurisdiction under Article III of
the Constitution of the United States of America as
the Court of appellate jurisdiction of all controversies
to which the United States is party and pursuant to
28 U.S.C §1254(1). Judgment for review was entered
by a panel for the Eleventh Circuit Court of Appeals
on Jan 7, 2020.

2

CONSTITUTIONAL PROVISIONS
1. Article I Section 2
“Representatives and direct Taxes shall be
apportioned among the several States which may
be included within this Union, according to their
respective Numbers”
2. Article I Section 8
“The Congress shall have Power To lay and
collect Taxes, Duties, Imposts and Excises...but
all Duties, Imposts and Excises shall be uniform
throughout the United States.”
3. Article I Section 9
“No Capitation, or other direct, Tax shall be laid,
unless in Proportion to the Census or
Enumeration herein before directed to be taken”
4. Sixteenth Amendment
“The Congress shall have power to lay and collect
taxes on incomes, from whatever source derived,
without apportionment among the several States,
and without regard to any census or enumeration.”
INTRODUCTION
Is there capital in personal finance or are all
financial gains income?
Swanson asks this Court to decide if The
United States is attempting to collect a direct tax on
his capital without apportionment. If true, this error
has catastrophic constitutional consequences for both
the individual taxpayer and each State Government.
If this error is not corrected, Swanson will pay an

3

unconstitutional tax and the Constitution’s federal
structure will be severely compromised.
Swanson contends that all financial gains fall
into one of two categories^ Income or capital. Some
financial gains are income and some financial gains
are capital and the legal distinction between the two
must be strictly enforced because they are taxed
differently. Financial gains that are income are
subject to the authority of the Sixteenth Amendment,
but financial gains that are capital are not. However,
the Internal Revenue Service attempts to collect a
tax on all financial gains without apportionment, not
just income. When the IRS collects a direct tax on
capital without going through the rule of
apportionment, two errors occur. First, the taxpayer
pays a tax that is not due and second, the United
States seizes from the States their constitutionally
protected source of revenue.
STATEMENT OF THE CASE
Swanson is a public school teacher whose
employment earnings are his source of capital. These
earnings do not qualify as “gross income” as defined
in the Internal Revenue Code and all capital that
was erroneously withheld from his 2016 and 2017
earnings must be returned. The District Court
dismissed Swanson’s refund suit. The Eleventh
Circuit AFFIRMED and sanctioned Swanson $8,000
for fifing a frivolous appeal.
Swanson submitted his first tax return with the
understanding that his employment earnings are not
“wages,” as defined in the Internal Revenue Code, in
tax year 2015. The IRS responded by challenging the
calculations on that return and after Swanson

4

provided a written explanation, the IRS issued a full
and complete refund.
Based in good faith on the IRS determination that
his 2015 tax return was correct, Swanson submitted
his 2016 and 2017 tax returns in the same manner
as his 2015 return. In both years he submitted a
Form 4852 indicating that the W'2s that he received
from his employer were incorrect because they
reported capital that may only be taxed by
apportionment as “wages.” Swanson corrected the
erroneous entries by indicating he earned $0 “wages”
as defined in the Internal Revenue Code because his
capital did not qualify as “wages.” The returns were
filed requesting that all erroneously withheld capital
be returned, Swanson’s 2016 and 2017 IRS
transcripts show that refunds are due. The IRS did
not process either return, and after two years of
waiting, Swanson filed a suit for refund.
Swanson submitted his 2018 tax return in the
same manner as his 2015, 2016 and 2017 returns.
Without hassle or protest, the IRS has refunded all
$7,611.35 of his erroneously withheld capital and
applied the refund to an amount owed from a
previous year. The IRS issued refunds for 2015 and
2018 but is withholding the refunds for 2016 and
2017 and declared the latter returns frivolous.
Subsequent to fifing suit, the IRS has now
issued Notices of Deficiency and is attempting to
collect frivolous penalties on both the 2016 and 2017
returns. The contradiction in the IRS’s handling of
Swanson’s various returns was ignored by both the
District Court and the Eleventh Circuit.
Distinguishing between capital and income in
personal finance is not a frivolous argument but is a
constitutional question of critical importance. If a
taxpayer misreports capital on a federal income tax

5
form, the United States would collect a direct tax on
capital without apportionment and steal from the
States their constitutionally protected source of
revenue.
REASONS FOR GRANTING THE PETITION
I.

Respondent is violating the Constitution by
collecting a direct tax on Petitioner’s capital
without going through the rule of
apportionment.

We live in a capitalist society and all economic
activity is dependent upon capital. Distinguishing
between capital and income in personal finance is
the single most important act when calculating an
income tax liability because they are taxed
differently- Income is subject to the Sixteenth
Amendment but capital is not. Senators who revived
the Income Tax after the ratification of the Sixteenth
Amendment had to define their terms and the
distinction between capital and income is preserved
in their debates. Senator Cummins said:
When the people of the country granted
to Congress the right to levy a tax on
incomes, that right was granted with
reference to the legal meaning and
interpretation of the word “income” as it
was then or as it might thereafter be
defined or understood in legal
procedure. If we could call anything
income that we pleased, we could

6
obliterate all the distinction between
income and principal1
The Senator understood that income and principal
are taxed differently:
If it were within the power of Congress
to enlarge the meaning of the word
“income,” it could, as I suggested a
moment ago, obliterate all difference
between income and principal, and
obviously the people of this country did
not intend to give to Congress the power
to levy a direct tax upon all the property
of this country without apportionment.2
All income can be taxed without apportionment, but
all the property (money) of the country cannot. This
Court agreed with Congress that the distinction
must be maintained in Dovle v. Mitchell Bros. Co.
(247 US. 179, 1918):
Whatever difficulty there may be about
a precise and scientific definition of
“income,” it imports, as used here,
something entirely
distinct
from
principal or capital either as a subject of
taxation or as a measure of the tax.
Obliterating the distinction between income and
principal has been the Internal Revenue Services’
single greatest achievement. By obliterating this
distinction, the IRS has, for many years, succeed in
1 1913 Congressional Record, Vol L, Part 4, pg. 3843
2Ibid, pg. 3844

7
evading the Constitution by collecting a direct tax on
the nation’s capital without going through the rule of
apportionment.
A. LABOR CREATES CAPITAL.
Capital (principal) is a store of wealth and
money is capital in its financial form. Capital is a
financial gain that comes from one’s own labor.
When creating the income tax in 1913, the Senators
explained the origin of capital (principal):
The earnings of any person from any
occupation or profession would, if not
spent in like manner, become principal.
If by professional effort any person
should earn a given sum annually and
he spends half of it, he saves the other
half. The half so saved in turn becomes
principal. That principal is property.3
When distinguishing between income and principal,
earnings that are not spent become the principal.
And Senator Williams reminds the reader that
money is property:
Money is as much property as is
anything else, and when a man earns
$20,000 in money during a year he has
got that much in property.4

3 Ibid, p. 3843
4 Ibid, p. 3838

8
[S]o that the man whose property
consists in dollars which he earns in a
year is the least taxed of all men5
Capital is money that is earned from one’s own labor
and, according to this Court in Butchers’ Union v.
Crescent City Co. (ill US. 746, 1884), one’s own
labor is property. The property one has in their own
labor is the most sacred and inviolable because it
represents part of one’s life. When one sacrifices a
part of their life in exchange for money, that money
represents minutes, hours and days of their life that
cannot be recovered and this is what makes money
property.
Life and labor are a person’s most valuable
capital assets, and when a capital asset is converted
into money, the money remains capital. This Court
has recognized the distinction between “income” and
the conversion of capital into money. In Doyle, this
Court observed:
Income may be defined as the gain
derived from capital, from labor, or from
Understanding the
both combined."
term in this natural and obvious sense,
it cannot be said that a conversion of
capital assets invariably produces
income
Doyle explains that when a capital asset is converted
into money, the money remains capital:
When the act took effect, Petitioner's
timber lands, with whatever value they
5 Ibid, p. 3839

9
then possessed, were a part of its
capital assets, and a subsequent change
of form by conversion into money did
not change the essence.
When timber is converted into money, the essence
isn’t changed and the money remains capital. In
Stratton’s Independence v. Howbert (231 U.S. 399,
1913) it was observed:
The sale outright of a mining property
might be fairly described as a mere
conversion of the capital from land into
money
When land is converted into money, the money
remains capital. Again in Doyle The Court held:
Yet it is plain, we think, by the true
intent and meaning of the act, the
entire proceeds of a mere conversion of
capital assets were not to be treated as
income.
The principles expressed here are applicable to all
capital assets including one’s own labor. When labor
is converted into money, the money is likewise
capital. In his First Annual Message, President
Lincoln observed:
Labor is prior to and independent of
capital. Capital is only the fruit of labor,
and could never have existed if labor
had not first existed.6
6 Abraham Lincoln, First Annual Message Dec, 1861

10

Financial capital is the fruit of one’s own labor and
usually comes in the form of a paycheck. At the end
of a work week, forty hours of life’s capital has been
exhausted and in return one receives forty hours of
financial capital. The paycheck restores capital so
that at the end of the week, one has the same
amount of capital as at the beginning. The capital is
merely in a different form and the “change of form by
conversion into money did not change the essence.”
When life and labor are converted into money, the
money remains capital. Swanson contends that his
employment earnings are the “entire proceeds of a
mere conversion of capital” from labor into money
and are in no true sense income. In a practical sense,
if investment earnings are income and employment
earnings are also income, then there is no capital in
personal finance, and Swanson believes that this
would be financially and constitutionally absurd.
Where does capital originate if not from one’s own
labor?
Swanson had two sources of capital in the tax
years at issue. His employment earnings from
McDuffie County, Georgia and his military pension
are his two sources of capital.
B. INCOME IS DERIVED FROM CAPITAL.
Income is a financial gain that comes from
investment. Income is the “gain derived from
capital,” it cannot be the capital itself. From Eisner
v. Macomber (252 U.S. 189, 1920), this Court’s oft
quoted definition of “income” is:
Income may be defined as the gain
derived from capital, from labor, or from

11
both combined," provided it be
understood to include profit gained
through a sale or conversion of capital
assets
This definition describes an investment gain. This
Court rebuked the government for trying to expand
the meaning of “income” to mean any financial
“gain”’

The government, although basing its
argument upon the definition as quoted,
placed chief emphasis upon the word
"gain," which was extended to include a
variety of meanings; while the
significance of the next three words was
either overlooked or misconceived.
"Derived from capital," "the gain
derived from capital," etc. Here, we
have the essential matter:
The “gain derived from capital” is the essential
matter when identifying a gain that qualifies as
“income.” There can be no “gain derived from capital,
from labor, or from both combined,” without first
investing capital. Income is the product of invested
capital: Without capital, there can be no income.
Income is a luxury. Nobody needs an income, but a
person cannot survive without capital.
Swanson is a public school teacher and this
job is his source of capital. The “source” reference in
the Sixteenth Amendment and in 26 U.S.C. § 61(a)
means a “source of capital.” If “source” meant “source
of income” it would render § 61(a) logically,
grammatically and economically absurd:

12
“Gross income means all income from
whatever source [of income] derived...”
Gross income means all income derived from a
source of income? The verb “derived” means to
obtain from a parent substance. A thing is not
derived from itself. In this case, the parent substance
is capital Income is derived from capital, but the
capital may originate from many different sources.
Any job, any trade, any occupation or profession
whatsoever is a source of capital. One works to
create capital and from invested capital, one derives
income. The statute must be read:
“Gross income means all income from
whatever source [of capital] derived...”
The Sixteenth Amendment must be read the same
way. Swanson’s employment earnings are his source
of capital and his capital must be invested to derive
income.
The relationship between capital and income
is elementary: One works to create capital, and from
invested capital, one derives income — it’s simple. It
only becomes complicated when taxing authorities,
through craft and subterfuge, attempt to tax capital
as though it were income. Eisner described that
revenue agents have been in the business of
confusing these ideas for some time by placing, “chief
emphasis on the word ‘gain,’ which was extended to
include a variety of meanings.” Adopting a variety of
meanings for “gain” in an effort to tax capital as if it
were income is not new. Creating capital is a
financial gain, but it is not income. Eisner warns us
'to distinguish between what is and is not “income”:

13
It becomes essential to distinguish
between what is and what is not
“income,” as the term is there used, and
to apply the distinction, as cases arise,
according to truth and substance,
without regard to form.
Money that is “not income” is capital, and the
meaning of “income,” must be understood according
to truth and substance, not form or rhetorical
trickery. Unfortunately, the meanings of these terms
have been altered to confuse modern Americans.
the
1913
Consider
these
examples
from
Congressional debates on the income tax;
Mr. CRAWFORD. I should like to ask
the Senator if he seriously asserts that
politicians have an income?
Mr. WILLIAMS. Well, after they get
through with the year they have not
much left. [Laughter.]
Mr. BRANDEGEE. No net income.
Mr. WILLIAMS. But they have at least
had a salary and an opportunity to have
an income.1
This exchange makes little sense today, considering
the way these terms are confused. Today, “salary”
and “income” have become synonyms, whereas in the
exchange above, the salary is capital, and depending
how that capital might be invested, would give a
71913 Congressional Record, p. 3838, supra

14
senator the opportunity to have an income. The
salary is not income. This observation from Senator
Lodge is similar:
Of course the men of small earning
and small incomes pay taxes to the
Government of the United States in the
indirect form.8
Here is another example of how the proper
distinction in terms has been obliterated. As in the
previous example, “earnings” and “incomes” have
also become synonyms although, according to truth
and substance, “earnings” are capital.
In our capitalist society, capital drives all
economic activity and one must acquire capital
before generating an income. Labor creates capital.
Once acquired, capital may be spent, saved or
invested. It is from invested capital that one may
derive an income.
In the tax years at issue, Swanson’s only
income was the interest derived from capital
deposited in his bank accounts.
C. WHAT IS “GROSS INCOME”
The Federal Income Tax is collected on both
capital and income. “Income” is a constitutional term
that is defined by the Courts, but “gross income” is a
legal term that is defined by Congress. “Gross
income” includes all financial gains that Congress
may tax using the constitutional rule of uniformity,
which includes all income and some capital; it does

8Ibid, p. 3839

15
not include any financial gains that must be taxed by
apportionment.
Congress has two powers of taxation. It may
impose taxes that are apportioned among the States
and it may impose taxes that are uniform
throughout the United States.9 Unless Swanson is
mistaken, there are no apportioned taxes in the
Internal Revenue Code. Congress may include
apportioned taxes in the Internal Revenue Code, but
at this time it has chosen not to do so. Therefore, the
legal definition of “gross income” is aligned with
Congress’ power to tax, not economics, and includes
all financial gains taxed by the rule of uniformity. As
a result, all financial gains that are included in
“gross income” must conform to the Constitution’s
rule for uniformity and must be taxed as a duty, an
impost or an excise. This requirement is imposed on
both the income and the capital that are included in
“gross income.”
After the Sixteenth Amendment, all income
may be taxed “without apportionment,” which means
it must be taxed with uniformity. In Knowlton v.
Moore (178 U.S. 41, 1900), it was determined that
the rule of uniformity is imposed “only on duties,
imposts and excises.” Therefore, any tax on income
must conform to the Constitution’s rule for
uniformity and must be taxed as a duty, an impost or
an excise. All income is taxed as an excise by the rule
of uniformity and all income is included in the legal
definition of “gross income.”
Capital is not subject to the Sixteenth
Amendment. Capital may be taxed either by the rule
of uniformity or by the rule of apportionment
depending on the nature of the capital. Capital that
9 US Constitution, Art I, Section 2, 8, 9

16
may be taxed by the rule of uniformity may be
included in “gross income,” but any capital that must
be taxed by apportionment is constitutionally
excluded from “gross income.” Some capital is
included in the legal definition of “gross income” and
some capital is not.
“Gross income” is summarized in the following
chart-

All Money

Income

Principal/Capitai

'Gain derived from capRaf*
Earned Income
Unearned Income
IVs
Individual Income

*
*

*

* Alimony
Business Income Amendment | • Inheritance

*

Ordinary Income

•
•
-

•
♦
*

Investment earnings of al Rinds
Taxed with uniformity
Subject of the tax: Piwtogo
Measure of (bo tax: Income
Typo of tax: (retrod

Corporate Profits
Federally-connected employment
« ‘Employees' who earn “wages'
Pensions
Unemployment
Forgiveness of debt
Capital acquired by privilege
Taxed with uniformity
Subject of trie tax: PrMege
Measure of the ax: Pmcfeol
Type of ax: tndfreei

•
•

Noncorporate Business Profits
Private/non-prtvileged
employment earnings

Non-priviieged capital
Taxed with apportionment
Subject of the tat: Principal
Measure of Dtp tax: Prfrtcfeaf
Typo of tax: Oroct

"Gross Income"
All financial gains taxed by the rule of uniformity
This includes all income and SPmg_capital

This chart provides a visual representation of
everything Swanson is litigating: First, separate
capital from income; second, identify which capital
can be included in “gross income” and which capital
cannot. The Sixteenth Amendment applies to income
only, so the analysis on capital requires greater
scrutiny to determine if it may be included in “gross
income.”
26 U.S.C. § 61(a) cannot be understood in a
vacuum or analyzed alone. It must be juxtaposed
with the Constitution and considered jointly because
the constitutional requirements establish the

17
limitations of the statute. §6l(a) defines “gross
income” as;
GENERAL DEFINITION: except as otherwise
provided in this subtitle, gross income
means all income from whatever source
derived, including (but not limited to) the
following items:
(1) Compensation for services, including
fees, commissions, fringe benefits, and
similar items!
(2) Gross income derived from business;
(3) Gains derived from dealings in property!
(4) Interest;
(5) Rents!
(6) Royalties;
(7) Dividends;
(8) Alimony and separate maintenance
payments!
(9) Annuities;
(10) Income from life insurance and
endowment contracts!
(11) Pensions!
(12) Income from discharge of indebtedness!
(13) Distributive share of partnership gross
income!
(14) Income in respect of a decedent! and
(15) Income from an interest in an estate or
trust.
“Gross income” does not include any financial gains
taxed by apportionment and therefore, all gains are
taxed with uniformity and the
Sixteenth
Amendment did not change the rules for uniformity.
The rule for uniformity becomes an unwritten

18
constitutional caveat upon every tax statue and the
full measure of Congress’ taxing power is
automatically limited to those objects and activities
that may be taxed as a duty, an impost or an excise.
Both capital and income are scrambled together in
the foregoing list that defines “gross income” and
every item on this list must be taxed as a duty, an
impost or an excise. This is the constitutional
limitation on the meaning of “gross income.” If
money paid as compensation for service can be taxed
indirectly, then such compensation may be included
in “gross income.” However, any compensation for
service that must be taxed by apportionment is
constitutionally excluded from “gross income.”
Employment is a source of capital and some
employment may be taxed as a duty an impost or an
excise, and some employment may not. In contrast,
because of the Sixteenth Amendment, the income on
this fist is only taxed by the rule of uniformity and is
always included in “gross income.”
The Eleventh Circuit erred by ignoring the
constitutional limitations on the meaning of the
statutory terms in the Internal Revenue Code. In its
decision, the Eleventh Circuit ruled that
“Section 3401 of the Tax Code provides
that, for the purposes of withholding
income taxes, ‘wages’ refers to ‘all
remuneration (other than fees paid to a
public official) for services performed by
an employee for his employer’”
It also said that under Section 3121, “wages ‘means
all remuneration for employment.’” But the statute
does not mean all remuneration for employment; it
means all remuneration for employment that may be

19
taxed as a duty, an impost or an excise, because the
constitutional limitations are automatically imposed
on the statute. Any remuneration for employment
that must be taxed by apportionment is
constitutionally excluded from the meaning of
“wages.” Some salaries qualify as “wages” and others
do not. The Eleventh Circuit’s decision ignores the
constitutional limitations on the
statutory
definitions in the Tax Code
Swanson is a public school teacher who works
in the legal jurisdiction of the State of Georgia and
his 2016 and 2017 employment earnings cannot be
taxed as a duty, an impost or an excise. He did not
report his employment earnings on his 2016 or 2017
tax returns and for this reason they have been
judged frivolous by The United States and the
Courts. The only way for Congress to tax Swanson’s
employment earnings is to tax them as property
using the rule of apportionment. By withholding
Swanson’s income tax refunds, The United States is
attempting to collect a direct tax on Swanson’s
capital without going through the rule of
apportionment and is violating the Constitution.

n.

Respondent is attempting to use Petitioner’s
federal tax return to evade the apportionment
requirement for collecting a direct tax on his
capital and use Petitioner to confiscate the
State of Georgia’s constitutionally protected
source of revenue.

Our federal system of government divides
power between the Federal Government and the
State Governments and financial power is divided as
Swanson
surely as political power is divided.

20

believes that he has re-discovered a forgotten
element of federalism during his research, The
division of financial power may have been forever
lost to history had it not been preserved in Pollock v.
Farmers’ Loan & Trust Co. (158 U.S. 601 & 618,
1895):
In distributing the power of taxation,
the Constitution retained to the State
the absolute power of direct taxation,
but granted to the Federal government
the power of the same taxation upon
condition that, in its exercise, such
taxes should be apportioned among the
several States according to number, and
this was done in order to protect to the
States, who were surrendering to the
Federal government so many sources of
income, the power of direct taxation,
which was their principal remaining
resource.
From this powerful summary found in the syllabus,
we learn that the power of taxation is divided to
fairly allocate financial resources and that
apportionment exists to discourage the Federal
Government from encroaching on the States’
constitutionally protected source of revenue. Direct
taxes are the States’ principal financial resource, and
all revenue derived from direct taxes belongs to the
States unless apportioned for federal use. The States
surrendered numerous sources of revenue to the
Federal
Government
when
ratifying
the
Constitution, so the absolute power of direct taxation
is meant to compensate them and ensure they have a
sufficient financial resource to fund their

21
constitutional obligations. The following excerpt
from Chief Justice Fuller’s opinion in Pollock is
quoted at length to provide authoritative evidence
that, in the opinion of The Court, the Founders and
the Constitution intentionally divided financial
resources between the States and Federal
Government, and that apportionment exists
specifically to enforce the separation of financial
power.
The reasons for the clauses of the
Constitution in respect of direct
taxation are not far to seek. The States,
respectively, possessed plenary powers
of taxation. They could tax the property
of their citizens in such manner and to
such extent as they saw fit; they had
unrestricted powers to impose duties or
imposts on imports from abroad, and
excises on manufactures, consumable
commodities, or otherwise. They gave
up the great sources of revenue derived
from commerce; they retained the
concurrent power of levying excises, and
duties if covering anything other than
excises; but, in respect of them, the
range of taxation was narrowed by the
interstate
over
granted
power
commerce, and by the danger of being
put at disadvantage in dealing with
excises on manufactures. They retained
the power of direct taxation, and to that
they looked as their chief resource; but,
even in respect of that, they granted the
concurrent power, and if the tax were
placed by both governments on the

22

same subject, the claim of the United
States had preference. Therefore, they
did not grant the power of direct
taxation without regard to their own
condition and resources as States; but
they granted the power of apportioned
direct taxation, a power just as
efficacious to serve the needs of the
general government, but securing to the
States the opportunity to pay the
amount apportioned, and to recoup from
their own citizens in the most feasible
way, and in harmony with their
systems of local self-government.
The founders anticipated that the
expenditures of the States, their
counties, cities, and towns, would
chiefly be met by direct taxation on
accumulated property, while they
expected that those of the Federal
government would be, for the most part,
met by indirect taxes. And in order that
the power of direct taxation by the
general government should not be
exercised, except on necessity ... the
qualified grant was made.
While the States possess the absolute power of direct
taxation, the Federal Government’s power of direct
taxation is “qualified” meaning that it must go
through the rule of apportionment. The reason that
the Federal Government must go through the rule of
apportionment to enact direct taxes is that
apportionment is difficult by design and this

23

difficulty acts as a barrier to “protect to the States ...
the power of direct taxation.”
Therefore, the meaning of “direct taxes” is
important because they are sources of revenue
reserved to the States. In 2012, this Court issued an
authoritative analysis on what is and what is not a
direct tax in National Federation of Independent
Business (NFIB) v. Sebelius (567 U.S. 519, 2012)
when it was argued that the Obamacare penalty
amounted to a direct tax that must be apportioned.
Chief Justice Roberts responded with this analysis:
That narrow view of what a direct tax might
be persisted for a century. In 1880, for
example, we explained that “direct taxes,
within the meaning of the Constitution, are
only capitation taxes, as expressed in that
instrument, and taxes on real estate.”
Springer, supra, at 602. In 1895, we
expanded our interpretation to include
taxes on personal property and income from
personal property, in the course of striking
down aspects of the federal income tax.
Pollock v. Farmers’ Loan & Trust Co., 158
U.S. 601, 618 (1895). That result was
overturned by the Sixteenth Amendment,
although we continued to consider taxes on
personal property to be direct taxes. See
Eisner v. Macomber, 252 U.S. 189—219
(1920).
One will not find a more lucid or concise summary of
the constitutional meaning of “direct taxes.” First,
they included only capitation taxes and taxes on real
estate. Pollock expanded that interpretation to
include “taxes on personal property and income from

24

personal property,” but that expanded interpretation
was overturned by the Sixteenth Amendment.
Therefore, while taxes on personal property are still
considered “direct taxes,” after the Sixteenth
Amendment, taxes on income are not “direct taxes.”
The three recognized categories of “direct tax” are- A
capitation, a tax on real estate, and a tax on personal
The DC Court of
property (including money).
Appeals said much the same thing in Murphy v. IRS
493F3d 170.179 (2007) :
Only three taxes are definitely known to
be direct: (l) a capitation, U.S. Const, art.
I, § 9, (2) a tax upon real property, and (3)
a tax upon personal property.
These three categories of “direct tax” are sources of
revenue the Constitution reserves to the States.
The tax structure is summarized in the chart
below, which shows the division of the taxing power
and also how apportionment separates financial
resources.
US Constitution
Direct Taxes

X

indirect Taxes

State Revenue

E.

Federa^tevenue

<D

(D

Capitation
Taxes on Real Estate
Taxes on all personal property
(Including money)
Capital
(money - "property" - as the subject of the tax)

3

Requirement: Uniformity

■a

All not Direct Taxes Including:
Duties, Imposts and Excises

(D

(money - capital & income - as the measure of the tax)

I>

x>
o
3
o
3
3

"Gross Income"

2.

Those who understand American government may
admire how beautifully the Founders incorporated

25
federalism into the tax structure. This chart shows
that when collecting federal revenue, Congress must
use the rule of uniformity when it enacts duties,
imposts and excises, but if Congress wishes to
impose a “direct tax,” and intrude on the States’
primary source of revenue, it must go through the
rule of apportionment. “Gross income” includes all
financial gains taxed by the rule of uniformity where
money (capital and income) can be taxed as a duty,
an impost or an excise. Money that cannot be taxed
indirectly is capital that must be taxed as property
by the rule of apportionment
Additionally, when Congress enacts a “direct
tax,” the State Governments are the taxpayers, and
“pay the amount apportioned” and then “recoup from
their own citizens”10 the amount of the federal tax.
Individuals do not pay a “direct tax” to the United
States because that is not how the federal system is
designed to operate.
In “Federalist 39,” James
Madison concluded that our federal system is neither
wholly national nor wholly federal, but a
combination of both, explaining the difference this
way:
The difference between a federal and
national government, as it relates to the
operation of the government, is supposed
to consist in this, that in the former the
powers operate on the political bodies
composing the Confederacy, in their
political capacities; in the latter, on the
individual citizens composing the nation,
in their individual capacities.

10 See Pollcok

26
The federal and national principles of government
are manifest in the tax structure. The rule of
uniformity has the effect of stripping away the State
boundaries to collect indirect taxes on citizens
composing the nation, in their individual capacities,
as if the country is one consolidated republic. In
contrast, “direct taxes” are apportioned and collected
from each of the States in their political capacities.
The rule of uniformity promotes the national
principle while the rule of apportionment promotes
the federal principle, and in harmony with Madison’s
conclusion, the tax structure is partly national and
partly federal. This means that individual citizens
pay indirect taxes, while the State Governments pay
“direct taxes”. Justice Paterson, in Hylton v. United
States (3 U.S. 3 Dali. 171171, 1796), observed:
Apportionment is an operation on states,
and involves valuations and assessments
which are arbitrary, and should not be
resorted to but in case of necessity.
Uniformity is an instant operation on
individuals without the intervention of
assessments or any regard to states, and is
at once easy, certain, and efficacious
Using simple logic, it is easy to conclude that• “Direct taxes” are apportioned and operate
on States.
• Indirect taxes are uniform and operate on
individuals.
These rules determine the operation of the tax:
Uniform taxes operate on individuals and
apportioned taxes operate on States. The
Constitution does not permit these rules to be

27
altered or rearranged for the sake of convenience.
The Constitution does not authorize a uniform
“direct tax” or an apportioned indirect tax, and
neither Congress nor the IRS can invent a new tax.
Therefore, “direct taxes” do not operate on
individuals and indirect taxes do not operate on
States. It is commonly, but wrongly, asserted that
the Sixteenth Amendment allows a non-apportioned
“direct tax” upon income as shown on the IRS
website:
Numerous courts have both implicitly
and explicitly recognized that the
Sixteenth Amendment authorizes a
non-apportioned direct income tax on
United States citizens and that the
federal tax laws are valid as applied.11
If a tax is non-apportioned and direct, at the same
time, then which constitutional rule would apply and
upon whom or what would it operate?
Chief Justice Roberts provided contemporary
analysis to support the premise that the States pay
“direct taxes” in NFIB, where he explains Article 1
Section 9:
That clause provides: “No Capitation, or other
direct, Tax shall be laid, unless in Proportion
to the Census or Enumeration herein before
directed to be taken.” This requirement means
that any “direct Tax” must be apportioned so

11 https://www.irs.gov/privacy-disclosure/the-truth-aboutfrivolous-tax-arguments-section-i-d-to-e#D7

28
that each State pays in proportion to its
population.
The Chief Justice explains that when Congress
enacts any “direct tax,” “each State pays in
proportion to its population,” from which it can be
concluded that the individual does not pay the
“direct tax.” When Congress enacts a “direct tax,” the
State Governments write the checks to pay it.
Therefore, not only is the power of taxation divided
between the States and the Federal Government, but
who pays the tax is also divided. In our federal
system of government, “direct taxes” are collected
federally, not nationally, and are paid by the States,
not by individuals.
The federal and national elements of the tax
structure are shown in the following graphic^

29
Both the States and The United States collect direct
and indirect taxes, but they are collected by different
means. The States collect both direct and indirect
taxes from the individual taxpayers in the State. The
States collect a direct tax in the economic sense as
defined by economists like Adam Smith. The United
States collect an indirect tax nationally from
individuals, but it collects a “direct tax” federally
from the State Governments. The United States
collects a “direct tax” in the constitutional sense as
defined by The U. S. Supreme Court, not economists.
As shown in the graphic, if Congress does not
exercise the apportionment option, then all revenue
derived from direct taxes remains with the States.
The Constitution divides financial power as
surely as it divides political power. The tax on “gross
income” is an indirect tax and serves as a primary
source of revenue for the Federal Government.
However, a direct tax on capital is a source of
revenue the Constitution reserves to the States.
If Swanson does not correctly distinguish
between capital and income when calculating his
income tax liability, not only will he pay a tax he
doesn’t owe, but he will also defraud the State of
Georgia by enabling the United States to tax his
capital without going through the rule of
apportionment. By misreporting his capital on his
federal income tax forms he would become an
unwitting middleman acting for the benefit of the
United States as it seizes from the State of Georgia
its constitutionally protected source of revenue. The
United States is attempting use Swanson’s federal
tax return as the vehicle to evade the apportionment
requirement for collecting a direct tax on capital by
encouraging Swanson to conceal his capital in the
return and transfer the money into the federal

30

treasury in an ostensibly legitimate transaction.
Taxpayers who do not understand the constitutional
limitations on the taxes imposed by the Internal
Revenue Code may not correctly distinguish between
those salaries and wages that may be taxed by the
rule of uniformity and those that must be taxed by
apportionment. The federal tax form would become
the instrument by which the State’s protected
financial assets are confiscated if capital, that may
only be taxed by apportionment, is reported on a
form 1040. If Swanson misreports his capital when
calculating his federal income tax liability, he would
simultaneously pay a tax he doesn’t owe and he
would also become the agent of fraud who threatens
the foundation of our entire federal system of
government.
In like manner, each and every State
Government is being defrauded by individual
citizens nationwide who, either through confusion,
deception or coercion, misreport their capital as
income. As a result, an illegal non-apportioned
“direct tax” upon the nation’s capital operates
undetected and vast sums of the State Governments’
protected financial assets are diverted into the
federal treasury in violation of the Constitution.
Swanson has no intention of paying more tax than is
legally required and he will not be used as an
unwitting patsy to undermine our federal system of
government.
Swanson did not report any of his capital that
must be taxed by the rule of apportionment on either
his 2016 or 2017 federal tax forms. However, The
United States has withheld his refunds in an
attempt to collect a “direct tax” without
apportionment on his capital and covertly confiscate
protected financial assets from the State of Georgia.

31

m.

The Eleventh Circuit imposed an $8,000
sanction on Petitioner but ignored both the
constitutional questions presented to it and
Respondent’s contradictions.

The distinction between capital and income is
a constitutional question because the Sixteenth
Amendment applies to income, but not to capital.
Whether employment earnings are capital or income
is a question of fact that the Courts refuse to
acknowledge. When deciding individual income tax
cases, courts at all levels of the judiciary sidestep
questions that require them to acknowledge the
existence of capital in personal finance and rule on
something else, as the Courts did in Swanson’s case.
One of Swanson’s allegations in his complaint
states, “(8) Life and labor are capital assets and the
mere conversion of these assets into money is
financial capital, not income.” However, the District
Court ignored the allegation and dismissed the
complaint stating “Arguments that wages are not
taxable income have ‘been rejected by courts at all
levels of the judiciary and are patently frivolous.”12
The word “wages” does not even appear in Swanson’s
complaint and the Court’s reasoning seems like legal
spin to avoid Swanson’s actual argument which is
simply: Are employment earnings capital or income?
Swanson also alleged in is complaint that:
(ll) The Sixteenth Amendment applies to
income only and by refusing to issue
Plaintiffs 2016 and 2017 refunds,
Defendant is attempting to collect tax
without apportionment on Plaintiffs
12 District Court Order, Appendix pg. 12

32
capital, which violates the Sixteenth
Amendment.
Here is another constitutional argument that is
based on correctly distinguishing between capital
and income in personal finance, which the District
Court adroitly evaded stating:
“ [Arguments that "wages are not income
subject to tax but are a tax on property
such as their labor; that only public
servants are subject to tax liability; [and]
that withholding of tax from wages is a
direct tax on the source of income without
apportionment in violation of the
are
Sixteenth Amendment
frivolous."13
The Court did not answer the question whether
employment earnings are capital or income.
Swanson appealed the same questions to the
Eleventh Circuit and the response was similar. The
Court noted in the introduction that:
Swanson contends (l) employment
earnings constitute a return of capital
rather than income, and (2) his
employment earnings did not constitute
“wages” within the meaning of our prior
precedent because his salary was not
taxable as a privilege or derived from
privileged employment.

13 District Court Order, Appendix pg. 12

33

Contention one is in the ballpark, but it was ignored
and there is no analysis of it in the opinion. The
entire opinion is focused on defeating contention two
when “wages” is not in the original complaint, and
only two pages of his 37-page brief discusses it. The
opinion ignores whether employment earnings are
capital! whether his capital is being taxed without
apportionment; and whether Georgia’s financial
assets are being confiscated. The opinion is nearly
identical to the District Court’s- “Swanson’s
argument his salary was not taxable as income is
frivolous under our precedent,” 14 and also
“Swanson’s argument his salary is not taxable as
income is also frivolous pursuant to the Department
of the Treasury notice,”15 and finally “Swanson’s
contention his salary was not “wages” is contrary to
the statutory definition of the term.”16 The Eleventh
Circuit’s opinion lectures Swanson by repeating its
precedent regarding the taxability of “wages,”
reviewing the contents of Treasury notices and
misinterpreting the statutory definition of “wages,”
but it never considered Swanson’s actual question^
Are employment earnings capital or income?
According to Congress, the question is for the courts^
The people have granted us the power
to levy a tax on incomes, and it will
always be a judicial question as to
whether a particular thing is income or
whether it is principal.17

14 Eleventh Circuit Opinion, Appendix pg. 4
15 Ibid, pg 4
16 Ibid, pg 5
171913 Congressional Record, Vol L Part IV pg. 3844

34

If the distinction between capital and income is
always a judicial question (because it’s a
constitutional question), and the Courts refuse to
answer the question when it is presented for their
review, then the taxpayer will always be in a
financial quagmire for the answer is necessary to
correctly calculate one’s income tax liability. One
must first separate capital from income and then
determine which capital is subject to the Income Tax
and which capital is not. If employment earnings are
income, then they always qualify as “gross income.”
If employment earnings are capital then, contrary to
the Eleventh Circuit’s opinion, only some salaries
qualify as “gross income,” but other salaries do not.
It becomes Swanson’s responsibility to understand
the difference and to report his own money correctly.
Swanson deserves an answer.
Swanson’s suit was dismissed for failure to
state a claim and the Eleventh Circuit also held that
the District Court lacked jurisdiction because the
refund claim was invalid. Both of these rulings are
incorrect. Distinguishing between capital and income
in personal finance is a sufficient factual matter to
claim an income tax refund and is plausible on its
face. Also, both of Swanson’s returns are valid claims
for refund as shown by the refunds he has already
received for tax year’s 2015 and 2018. The District
Court had lawful jurisdiction and a proper claim for
refund has been made. How can the Courts dismiss
Swanson’s suit for failure to state a claim when they
refuse to rule on the factual matter of whether his
employment earnings are capital or income? When
the Appeals Court performs a de novo review of a
motion to dismiss for failure to state a claim, it is
supposed to accept “all allegations of the complaint
as true and construes the facts in the fight most

35
favorable to the plaintiff.”18 It does not appear that
Swanson was granted that courtesy in this case.
The record shows that in 2015 the IRS
challenged Swanson’s first tax return that was
submitted with the understanding that his earning
did' not qualify for the tax. After Swanson’s written
explanation, the return was processed and the full
refund was issued. Every tax return since 2015 has
been submitted in the same manner and two refunds
have been issued and two returns have been deemed
frivolous. How can this be? This contradiction has
been raised with both the District Court and the
Eleventh Circuit but both have refused to
acknowledge that Swanson’s returns at issue are
based in good-faith on the IRS’s determination that
his 2015 and 2018 returns are correct. Swanson has
earned an $8,000 sanction as a reward for
Respondent’s contradictions.
Swanson has been sanctioned $8,000 for
making a frivolous appeal. When imposing sanctions,
the Eleventh Circuit abused its discretion by
ignoring both Swanson’s constitutional arguments
and Respondent’s contradictory processing of his
returns. Swanson did not file a frivolous appeal
because distinguishing between capital and income
is a plausible fact that is not frivolous. Therefore,
Rule 38 sanctions are not appropriate.
CONCLUSION
The United States is attempting to collect a
direct tax without apportionment on Swanson’s
capital. This error has catastrophic constitutional
consequences for both the individual taxpayer and
18 Harrv v. Marchant. 237 F.3d 1315,1317 (11th Cir. 2001)

36
each State Government. If this error is not corrected,
Swanson will pay an unconstitutional tax and the
Constitution’s federal structure will be severely
compromised. For the foregoing reasons, this petition
for a writ of certiorari should be granted.
Respectfully Submitted,
/S/BRIAN D. SWANSON
Petitioner, pro se
1805 Prince George Ave
Evans, Ga 30809
(831)601-0116
February 1, 2020

